U.S. Department of                                                The Inspector General            Office of Inspector General
Transportation                                                                                     Washington, D.C. 20590
Office of the Secretary
of Transportation




April 26, 2012



The Honorable Darrell Issa
Chairman, Committee on Oversight
 and Government Reform
United States House of Representatives
Washington, DC 20515

Dear Chairman Issa:

Thank you for your letter of April 5, 2012, requesting that the Department of
Transportation (DOT) Office of Inspector General (OIG) provide information on the
status of open audit recommendations. Specifically, you requested the following: (1)
the number of open OIG recommendations; (2) estimated cost savings associated with
open recommendations; (3) our three most important open recommendations; and (4)
the number of recommendations implemented this past year.

As of April 16, 2012, we identified 536 open recommendations, which were included
in 193 audit reports. Of the 536 open recommendations, 50, which were included in
42 reports, carry an estimated monetary benefit or cost savings totaling
$1,908,133,256. 1 The oldest open recommendation with financial benefits was issued
in July 2007. The enclosed document provides detailed information on these
50 recommendations.

We identified the following as the three most important open recommendations based
on the significance of potential safety improvements, financial benefits, or increased
economy or efficiency.




1
    Cost savings were based on questioned costs, unsupported costs, and funds put to better use.


Control No. 2012-019
                                                                                                                    2


• Significant Safety Issue

   Component             Open Recommendation                                        OIG Report
   Federal Aviation      Ensure the collection and analysis of data regarding       FAA and Industry Are Taking
   Administration        domicile and commuting length for all Part 121 flight      Action To Address Pilot Fatigue,
   (FAA)                 crews. Specifically, information regarding the number      but More Information on Pilot
                         of pilots and other flight-crewmembers who                 Commuting Is Needed, AV-2011-
                         commute, their methods of transportation, and the          176 (September 12, 2011)
                         distances they commute, should be collected.


   In our September 2011 report, we noted that FAA published a proposed and final rule
   on flight, duty, and rest regulations for pilots. However, the rule did not require
   carriers to track pilot domicile 2 or commuting—factors that can contribute to fatigue
   since many pilots in the industry reside hundreds or thousands of miles from their
   assigned duty locations. FAA concurred in part with our recommendation and
   committed to conducting a scan of all available data on pilot commuting and
   determining whether additional data could offer significant safety benefits. The target
   action date is October 1, 2012.

• Significant Safety Issue

   Component             Open Recommendation                                        OIG Report
   Federal Highway       Collect and analyze Highway Bridge Program (HBP)           Assessment of FHWA Oversight
   Administration        expenditure data on a regular basis to identify            of the Highway Bridge Program
   (FHWA)                activities undertaken by States, such as bridge            and     the   National  Bridge
                         replacement and rehabilitation, to improve the             Inspection Program, MH-2010-
                         condition of the Nation's bridges.                         039 (January 14, 2010)


   Our January 2010 report describes how FHWA lacks sufficient data to evaluate
   States’ use of HBP funds and ensure that States target Federal dollars to bridges most
   in need of attention. Specifically, FHWA cannot link HBP expenditures to bridge
   improvements—a significant data gap. While some progress has been made in recent
   years to reduce the number of deficient bridges, maximizing Federal surface
   transportation investments to improve current bridge conditions is a major challenge
   for FHWA, particularly at a time of diminishing Federal resources. FHWA told us in
   March 2012 that a plan has been developed to collect more information on bridge
   projects and better track activities undertaken by the States to improve the Nation's
   bridges. While FHWA has yet to set a date for releasing the new system enhancement,
   it has agreed to finish evaluating the proposed changes and set a target release date by
   September 30, 2012.


   2
       In the aviation industry, “domicile” refers to the crewmember’s work location rather than the crewmember’s home
       location.


   Control No. 2012-019
                                                                                                           3


•   Significant Program Improvement

    Component         Open Recommendation                                    OIG Report
    Office of the     Implement the use of personal identity verification    Timely Actions Needed To
    Secretary         (PIV) cards as the primary authentication mechanism    Improve DOT’s Cybersecurity, FI-
                      to support multi-factor authentication at the system   2011-022 (November 15, 2010)
                      and application level for all DOT employees and
                      contractors.


    Our 2010 report on DOT’s Information Security Program recommended actions to
    improve computer security, including the use of PIV cards as the primary
    authentication mechanism for all DOT employees and contractors. The PIV card
    program is one of the Administration’s top priorities and is critical to prevent
    unlawful access to sensitive information and key Federal facilities. DOT agreed to
    implement appropriate authentication mechanisms that include PIV cards and other
    methods in cases where PIV cards were not appropriate. DOT’s target completion
    date for this action is September 30, 2012.

    Finally, we closed 466 recommendations from 204 audit reports between April 7,
    2011, and April 16, 2012.

    We appreciate DOT’s responsiveness to our findings and recommendations and are
    committed to working with the Department to ensure the safe and efficient operations
    of our National Transportation System. We would especially like to note that the
    Deputy Secretary is actively engaged in working with DOT’s Operating
    Administrators to ensure that appropriate corrective actions are quickly taken to
    resolve and close our recommendations.

    If you have any questions or need further information, please contact me
    at (202) 366-1959 or Nathan Richmond, Director and Counsel for Congressional and
    External Affairs, at (202) 493-0422.

    Sincerely,



    Calvin L. Scovel III
    Inspector General

    Enclosure




    Control No. 2012-019
                                                                       Department of Transportation, Office of Inspector General
                                                                           Open Recommendations with Financial Benefits
                                                                                         As of April 16, 2012

                                           REPORT DATE REPORT   OPERATING                DESCRIPTION OF                QUESTIONED UNSUPPORTED   FUNDS PUT TO      TARGET
             REPORT TITLE                  NUMBER    ISSUED   ADMINISTRATION            RECOMMENDATION                    COSTS      COSTS       BETTER USE     ACTION DATE   REMARKS
FAA's Air Traffic Controller Optimum      AV2010126 9/30/2010      FAA       We recommend that FAA determine                                     $422,000,000     6/30/2012
Training Solution Program: Sound                                             (a) if the existing contract mechanism
Contract Management Practices are                                            can be effectively modified to achieve
Needed to Achieve Program Outcomes                                           ATCOTS program goals within the
                                                                             current estimate of $859 million or (b)
                                                                             update cost estimates and
                                                                             requirements for its training needs and
                                                                             develop criteria for determining
                                                                             whether the Agency should exercise
                                                                             options in the contract.
More Rigorous Oversight is Needed to      AV2011180 9/29/2011      FAA       We recommend FAA assess the                 $493,070                                  TBD
Ensure Venice Municipal Airport Land                                         revenue diversions or self-sustainability
Sales and Leases are Used Appropriately                                      issues involving the distribution of
                                                                             Sharky's lease revenue and parking lot
                                                                             renovation costs and seek full
                                                                             recovery, plus interest on the $493,070
                                                                             in questioned costs identified by our
                                                                             office and any other improperly
                                                                             allocated revenue identifed by FAA.


More Rigorous Oversight is Needed to      AV2011180    9/29/2011        FAA       We recommended that FAA work with                               $426,329         TBD
Ensure Venice Municipal Airport Land                                              the City of Venice to develop an
Sales and Leases are Used Appropriately                                           appropriate allocation of future rent
                                                                                  revenue from Sharky's over the
                                                                                  remaining term of the lease and the
                                                                                  cost of subsequent capital
                                                                                  improvements such as parking lot
                                                                                  renovations, that protects the self-
                                                                                  sustainability of the airport.

Federal Highway Administration's          MH2011146    7/15/2011       FHWA       We recommend FHWA assess the                     $5,000,000                    9/30/2012
Oversight of Federal-Aid and Recovery Act                                         project transactions related to the $5
Projects Administered by Local Public                                             million in unsupported project costs we
Agencies Needs Strengthening                                                      identified in California and Texas and
                                                                                  review similar transactions within these
                                                                                  projects for unsupported costs. We
                                                                                  also recommend that they develop an
                                                                                  action plan to collect all unsupported
                                                                                  costs or identify FHWA's rationale for
                                                                                  acceptance of these costs.




   ENCLOSURE                                                                                       Page 1 of 6
                                                                          Department of Transportation, Office of Inspector General
                                                                              Open Recommendations with Financial Benefits
                                                                                            As of April 16, 2012

                                              REPORT DATE REPORT    OPERATING               DESCRIPTION OF               QUESTIONED UNSUPPORTED   FUNDS PUT TO       TARGET
             REPORT TITLE                     NUMBER    ISSUED    ADMINISTRATION          RECOMMENDATION                   COSTS       COSTS       BETTER USE      ACTION DATE          REMARKS
Quality Control Review of the Department     QC2012009 11/15/2011      OST       Clifton Gunderson recommended that                               $1,400,000,000     9/30/2012
of Transportation’s Audited Consolidated                                         DOT management ensure that OA's
Financial Statements for Fiscal Years                                            perform quarterly inactive project
2011 and 2010                                                                    reviews to ascertain that inactive
                                                                                 obligations are liquidated in a timely
                                                                                 manner throughout the year. Particular
                                                                                 attention should be paid to stagnant or
                                                                                 closed projects with open obligations.
                                                                                 Timely reconciliation with the OA's
                                                                                 grantees and contractors should be
                                                                                 performed.
The Joint Program Office's Management        AV2009040 3/11/2009       RITA      We recommend that RITA coordinate                                 $20,000,000      6/30/2012    RITA agreed to deobligate
of the Intelligent Transportation Systems                                        with FHWA to identify and review old                                                            $36,400,000.
(ITS) Program Needs to be Improved                                               ITS contracts and agreements and de-
                                                                                 obligate nearly $20 million in unneeded
                                                                                 funds.

Single Audit - Federated States of           SA2010115    9/21/2010        FAA       We recommend the allowability of the       $252,411                            5/11/2012
Micronesia Government                                                                contract payments and recover
                                                                                     $252,411 for the Micronesia National
                                                                                     Government.

Single Audit - Federated States of           SA2011159    8/18/2011        FAA       We recommend FAA determine the             $126,746                            6/13/2012
Micronesia Government                                                                allowability of the expenditures and
                                                                                     recover $126,746 from the Micronesia
                                                                                     National Government, if applicable.

Single Audit - Holmes County, Ohio           SA2012014   11/23/2011        FAA       We recommend that FAA determine            $49,060                               TBD
                                                                                     the allowability of the questioned costs
                                                                                     and recover $49,060 for the County, if
                                                                                     applicable.

Single Audit - City of Camden, Arkansas      SA2012065    3/1/2012         FAA       We recommend that FAA ensure the           $20,000                               TBD
                                                                                     City complies with Davis-Bacon
                                                                                     requirements and recover $20,000
                                                                                     from the City, if applicable.
Single Audit - Antonio B. Won Pat            SA2012074    3/22/2012        FAA       We recommend FAA recover $50,000           $50,000                               TBD
International Airport Authority, Guam                                                from the Authority, if applicable.


Single Audit - San Francisco International   SA2012075    3/22/2012        FAA       We recommend FAA ensure the                $205,428                              TBD
Airport                                                                              Airport complies with Cash
                                                                                     Management requirements and
                                                                                     recover $205,428 from the Airport, if
                                                                                     applicable.
Single Audit - San Francisco International   SA2012075    3/22/2012        FAA       We recommend FAA recover $308,150          $308,150                              TBD
Airport (con't)                                                                      from the Airport, if applicable.




   ENCLOSURE                                                                                           Page 2 of 6
                                                                         Department of Transportation, Office of Inspector General
                                                                             Open Recommendations with Financial Benefits
                                                                                           As of April 16, 2012

                                            REPORT DATE REPORT   OPERATING              DESCRIPTION OF                       QUESTIONED UNSUPPORTED   FUNDS PUT TO     TARGET
              REPORT TITLE                  NUMBER    ISSUED   ADMINISTRATION          RECOMMENDATION                          COSTS       COSTS       BETTER USE    ACTION DATE          REMARKS
Single Audit - State of Minnesota          SA2011129 6/13/2011     FHWA       We recommend that FHWA ensures                  $7,487,000                                 TBD
                                                                              the State complies with testing
                                                                              requirements for the bridge concrete
                                                                              and steel, and recover $7,487,000.


Single Audit - State of Minnesota          SA2011129    6/13/2011        FHWA       We recommend that FHWA ensures            $1,289,000                                TBD
                                                                                    the State complies with requirements
                                                                                    for grading and base construction and
                                                                                    recover $1,289,000 from the State, if
                                                                                    applicable.

Single Audit - State of Arizona            SA2011130    6/13/2011        FHWA       We recommend that FHWA recover             $22,356                                  TBD
                                                                                    $22,356 from the State.

Single Audit - State of Rhode Island and   SA2011132    6/16/2011        FHWA       We recommend that FHWA ensure the          $37,433                                  TBD
Providence Plantations                                                              State complies with Allowable
                                                                                    Costs/Cost Principles and recover
                                                                                    $37,433 from the State, if applicable.


Single Audit - Commonwealth of             SA2010114    9/21/2010       FMCSA       We recommend that FMCSA                    $15,519                                  TBD
Pennsylvania                                                                        determine the allowability of the
                                                                                    unused leave payouts and recover
                                                                                    $15,519 from the Commonwealth, if
                                                                                    applicable.
Single Audit - South Carolina Department   QC2007055    7/18/2007         FTA       We recommend that FTA determine           $496,479                                12/31/2013   FTA agreed to seek
of Transportation                                                                   the allowability of the Department's                                                           recovery of $2,600,000.
                                                                                    payments to the Authority, and recover
                                                                                    $496,479 from the Department and/or
                                                                                    the Authority, if applicable.


Single Audit - City of Roanoke, Virginia   SA2010078    7/22/2010         FTA       We recommend that FTA ensure the          $543,307                                12/31/2012
                                                                                    City abides by Federal and City
                                                                                    procurement requirements and recover
                                                                                    $543,307 from the City if applicable.

Single Audit - State of Washington         SA2010084    7/22/2010         FTA       We recommend that FTA recover             $740,889                                8/31/2012
                                                                                    $740,889 from the State.




Single Audit - Miami-Dade County Transit   SA2010087    7/27/2010         FTA       We recommend that FTA ensure the          $528,217                                12/31/2012
Department                                                                          County complies with Buy America
                                                                                    provisions, and recover $528,217 from
                                                                                    the County, if applicable.




   ENCLOSURE                                                                                         Page 3 of 6
                                                                           Department of Transportation, Office of Inspector General
                                                                               Open Recommendations with Financial Benefits
                                                                                             As of April 16, 2012

                                               REPORT DATE REPORT   OPERATING             DESCRIPTION OF                        QUESTIONED UNSUPPORTED   FUNDS PUT TO     TARGET
              REPORT TITLE                     NUMBER    ISSUED   ADMINISTRATION         RECOMMENDATION                           COSTS       COSTS       BETTER USE    ACTION DATE   REMARKS
Single Audit - Puerto Rico Metropolitan       SA2010105 8/30/2010      FTA       We recommend that FTA recover                   $1,799,744                              12/31/2013
Bus Authority                                                                    $1,799,744 from the Authority.

Single Audit - Puerto Rico Metropolitan       SA2010105   8/30/2010        FTA       We recommend that FTA determine             $452,294                                12/31/2013
Bus Authority                                                                        the allowability of the prior year
                                                                                     expenditures and recover $452,294
                                                                                     from the Authority, if applicable.
Single Audit - Wilkes-Barre, Pennsylvania     SA2010108    9/1/2010        FTA       We recommend that FTA recover               $448,000                                9/30/2012
                                                                                     $448,000 from the City.



Single Audit - South Tahoe Area Transit       SA2010118   9/27/2010        FTA       We recommend that FTA ensure that            $84,800                                6/30/2012
Authority                                                                            the Authority obtains title to the buses
                                                                                     or recover $84,800 from the Authority.


Single Audit - South Tahoe Area Transit       SA2010118   9/27/2010        FTA       We recommend that FTA ensure that           $208,700                                6/30/2012
Authority                                                                            the Authority obtain approval of the
                                                                                     hourly reimbursement rate and recover
                                                                                     $208,700 from the Authority if
                                                                                     applicable.
Single Audit - Yuma Metropolitan Planning     SA2010123   9/27/2010        FTA       We recommend that FTA ensure the             $11,948                                6/30/2012
Organization                                                                         Organization complies with various
                                                                                     Federal reporting requirements, and
                                                                                     recover $11,948 from the Organization,
                                                                                     if applicable.
Single Audit - City of Petersburg, Virginia   SA2011018   11/12/2010       FTA       We recommend that FTA ensure the            $1,500,000                                TBD
                                                                                     City prepares time certifications in
                                                                                     accordance with OMB Circular A-87,
                                                                                     and recover $1,500,000 from the City.

Single Audit - Yuma Metropolitan Planning     SA2011075   4/28/2011        FTA       We recommend FTA determine the              $344,353                                6/30/2012
Organization                                                                         allowability of the FY 2009 drawdown
                                                                                     activity and recover $344,353 from the
                                                                                     Planning Organization, if applicable.



Single Audit - Hillsborough Transit           SA2011082   4/29/2011        FTA       We recommend FTA recover $155,323           $155,323                                12/31/2012
Authority, Tampa Florida                                                             from the Authority.
Single Audit - State of Washington            SA2011092   5/23/2011        FTA       We recommend FTA ensure the State           $759,870                                8/31/2012
                                                                                     develops procedures to ensure payroll
                                                                                     costs are adequately supported and
                                                                                     recover $759,870 from the State, if
                                                                                     applicable.
Single Audit - Puerto Rico Metropolitan       SA2011115   5/24/2011        FTA       We recommend that FTA recover                $19,939                                12/31/2012
Bus Authority                                                                        $19,939 from the Authority.




   ENCLOSURE                                                                                           Page 4 of 6
                                                                          Department of Transportation, Office of Inspector General
                                                                              Open Recommendations with Financial Benefits
                                                                                            As of April 16, 2012

                                             REPORT DATE REPORT   OPERATING              DESCRIPTION OF                       QUESTIONED UNSUPPORTED   FUNDS PUT TO     TARGET
              REPORT TITLE                   NUMBER    ISSUED   ADMINISTRATION          RECOMMENDATION                           COSTS      COSTS       BETTER USE    ACTION DATE   REMARKS
Single Audit - City of Tracy, California    SA2011113 5/24/2011      FTA       We recommend FTA ensure the City                 $166,701                                6/30/2012
                                                                               maintains adequate documentation for
                                                                               payroll charges and recover $166,701
                                                                               from the City.
Single Audit - State of Tennessee           SA2011124 6/13/2011      FTA       We recommend FTA recover $23,511                 $23,511                                12/31/2012
                                                                               from the State.

Single Audit - State of Tennessee           SA2011124    6/13/2011        FTA        We recommend that FTA determine            $79,021                                12/31/2012
                                                                                     the allowability of the reimbursement
                                                                                     requests and recover $79,021 from the
                                                                                     State, if applicable.


Single Audit - State of Tennessee           SA2011124    6/13/2011        FTA        We recommend that FTA recover             $452,370                                12/31/2012
                                                                                     $452,370 from the State.

Single Audit - Lakeland Area Mass Transit   SA2011127    6/13/2011        FTA        We recommend FTA determine the            $618,588                                12/31/2012
District, Florida                                                                    allowability of the indirect costs and
                                                                                     recover $618,588 from the District, if
                                                                                     applicable.

Single Audit - Antelope Valley Transit      SA2011121    6/13/2011        FTA        We recommend FTA recover $222,216         $222,216                                  TBD
Authority                                                                            from the Authority.

Single Audit - Metropolitan Transit         SA2011143    7/14/2011        FTA        We recommend that FTA recover            $20,771,450                                TBD
Authority of Harris County, Texas                                                    $20,771,450
Single Audit - Greater Cleveland Regional   SA2012018   11/23/2011        FTA        We recommend FTA recover $529,981         $529,981                                5/23/2012
Transit Authority                                                                    from the Authority.
Single Audit - Commuter Rail Division of    SA2012020   12/13/2011        FTA        We recommend FTA recover                  $9,956,691                              6/13/2012
the Regional Transportation Authority and                                            $9,956,691 from METRA, if applicable.
the Northeast Illinois Regional Commuter,
Chicago, Illinois
Single Audit - City of Winston-Salem,       SA2012033   12/21/2011        FTA        We recommend FTA recover $26,500           $26,500                                7/21/2012
North Carolina                                                                       from the City.

Single Audit - Augusta, Georgia             SA2012035   12/21/2011        FTA        We recommend FTA recover $81,724           $81,724                                7/21/2012
                                                                                     from Augusta, Georgia, if applicable.


Single Audit - City of Columbia, Missouri   SA2012059    2/27/2012        FTA        We recommend FTA recover $22,803           $22,803                                8/27/2012
                                                                                     from the City.
Single Audit - Omaha Council Bluffs         SA2012060    2/27/2012        FTA        We recommend FTA recover $27,600           $27,600                                8/27/2012
Metropolitan Area Planning Agency,                                                   from the Council, if applicable.
Nebraska

Single Audit - King County, Washington      SA2012057    2/27/2012        FTA        We recommend FTA recover                  $3,170,485                              8/27/2012
                                                                                     $3,170,485 from the County, if
                                                                                     applicable.
Single Audit - Southeastern Regional        SA2012064    3/1/2012         FTA        We recommend FTA recover                  $4,276,750                               9/1/2012
Transit Authority, Massachusetts                                                     $4,276,750 from the Authority, if
                                                                                     applicable.


   ENCLOSURE                                                                                           Page 5 of 6
                                                                      Department of Transportation, Office of Inspector General
                                                                          Open Recommendations with Financial Benefits
                                                                                        As of April 16, 2012

                                        REPORT DATE REPORT   OPERATING               DESCRIPTION OF                QUESTIONED UNSUPPORTED     FUNDS PUT TO       TARGET
              REPORT TITLE              NUMBER    ISSUED   ADMINISTRATION          RECOMMENDATION                     COSTS      COSTS         BETTER USE      ACTION DATE   REMARKS
Single Audit - Southeastern Regional   SA2012064  3/1/2012      FTA       We recommend FTA ensure the                $419,469                                    9/1/2012
Transit Authority, Massachusetts                                          Authority complies with Cash
                                                                          Management requirements and
                                                                          recover $419,469 for the Authority, if
                                                                          applicable.
Single Audit - City of Beckley, West   SA2012077 3/22/2012      FTA       We recommend FTA recover                  $1,411,031                                  9/22/2012
Virginia                                                                  $1,411,031 from the City.

                                                                          TOTAL                                    $60,706,927   $5,000,000   $1,842,426,329
                                                                                                                                                               Grand Total   $1,908,133,256




   ENCLOSURE                                                                                    Page 6 of 6
